                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00914-190




 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

        VA Eastern Kansas 

        Health Care System 

          Topeka, Kansas 





June 26, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                             CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              22

  F. Report Distribution .............................................................................................            23

  G. Endnotes ...........................................................................................................         24





VA OIG Office of Healthcare Inspections
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of May 5, 2014, at the following
CBOCs which are under the oversight of the VA Eastern Kansas Health Care System
and Veterans Integrated Service Network 15:

    Chanute CBOC, Chanute, KS

    Fort Scott (Bourbon County) CBOC, Fort Scott, KS

    Garnett CBOC, Garnett, KS

Review Results: We conducted four focused reviews and had no findings for the
Medication Management review. The Designated Women’s Health Provider Proficiency
review had a finding that did not result in a recommendation. However, we made
recommendations in the following two review areas:

Environment of Care. Ensure that:

	    External signage clearly identifies the building as a VA CBOC at the Garnett CBOC.

	    Fire drills are performed every 12 months at the Garnett CBOC.

	    The door to the examination room designated for women veterans is equipped with
      an electronic or manual lock at the Garnett CBOC.

	    Processes are strengthened to ensure women veterans can access gender-specific
      restrooms without entering public areas at the Garnett CBOC.

	    The information technology server closet at the Chanute and Fort Scott CBOCs are
      maintained according to information technology safety and security standards.

	    Managers conduct environment of care rounds semi-annually at the Garnett CBOC.

	    The parent facility includes staff at the Chanute, Fort Scott, and Garnett CBOCs in
      required education, training, planning, and participation in annual disaster exercises.

	    The parent facility’s Emergency Management Committee evaluate the Chanute,
      Fort Scott, and Garnett CBOCs’ emergency preparedness activities, participation in
      annual disaster exercises, and staff training/education relating to emergency
      preparedness requirements.




VA OIG Office of Healthcare Inspections                                                     i
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–21, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                     ii
                           CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                          CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH primary care providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Chanute, Fort
Scott, and Garnett CBOCs. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM     Areas Reviewed                                  Findings
X      The CBOC’s location is clearly identifiable The Garnett CBOC’s location was clearly not
       from the street as a VA CBOC.                   identifiable from the street as a VA CBOC by the
                                                       address provided by the parent facility.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
X      The CBOC conducts fire drills at least every There was no evidence of fire drills occurring at
       12 months.                                      least every 12 months at the Garnett CBOC.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.



VA OIG Office of Healthcare Inspections                                                               3
                                CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


NM              Areas Reviewed (continued)                                 Findings
       All    medications      are     secured     from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not lying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
X      Adequate privacy is provided to women The examination room for women veterans at
       veterans in the examination room.                the Garnett CBOC was not equipped with either
                                                        an electronic or manual door lock.

                                                        Gowned women veterans at the Garnett CBOC
                                                        cannot access gender-specific restrooms
                                                        without entering public areas.
X      The       information    technology      network Access to the information technology network
       room/server closet is locked.                    room/server closets at the Chanute and
                                                        Fort Scott CBOCs was not documented.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
X      EOC rounds are conducted semi-annually (at EOC rounds were not conducted semi-annually
       least twice in a 12-month period) and at the Garnett CBOC.
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automatic external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
X      The parent facility includes the CBOC in The parent facility did not include the Chanute,
       required education, training, planning, and Fort Scott, and Garnett CBOCs in required
       participation leading up to the annual disaster education, training, planning, and participation
       exercise.                                        leading up to the annual disaster exercises.
X      The parent facility’s Emergency Management The parent facility’s Emergency Management
       Committee evaluates CBOC emergency Committee did not evaluate the Chanute,
       preparedness activities, participation in annual Fort Scott, and Garnett CBOCs’ emergency
       disaster exercise, and staff training/education preparedness activities, participation in annual
       relating      to    emergency     preparedness disaster exercise, and staff training/education
       requirements.                                    relating    to     emergency       preparedness
                                                        requirements.




VA OIG Office of Healthcare Inspections                                                               4
                                CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


Recommendations

1. We recommended that external signage clearly identifies the building as a VA CBOC at the
Garnett CBOC.

2.   We recommended that fire drills are performed every 12 months at the Garnett CBOC.

3. We recommended that the door to the examination room designated for women veterans is
equipped with an electronic or manual lock at the Garnett CBOC.

4. We recommended processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Garnett CBOC.

5. We recommended that the information technology server closets at the Chanute and
Fort Scott CBOCs are maintained according to information technology safety and security
standards.

6. We recommended that managers conduct environment of care rounds semi-annually at the
Garnett CBOC.

7. We recommended that the parent facility include staff at the Chanute, Fort Scott, and
Garnett CBOCs in required education, training, planning, and participation in annual disaster
exercises.

8. We recommended that the parent facility’s Emergency Management Committee evaluate
the Chanute, Fort Scott, and Garnett CBOCs’ emergency preparedness activities, participation
in annual disaster exercises, and staff training/education relating to emergency preparedness
requirements.




VA OIG Office of Healthcare Inspections                                                               5
                                CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 31 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 4 (13 percent) of 31 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 12 of 22 RN Care Managers did
       received motivational interviewing training        not receive motivational interviewing training
       within 12 months of appointment to PACT.           within 12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 3 of 22 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training within
       Promotion and Disease Prevention-approved          12 months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

9. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                    6
                                CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


10. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                               7
                                CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                      Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                               8
                                CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated               Four of five DWHPs were not designated with
 X
       with the WH indicator in the PCMM.               the WH indicator in the PCMM.

The facility made the required WH designation in PCMM for CBOC and PCC DWHPs during the
weeks of our reviews. We verified the updated information.




VA OIG Office of Healthcare Inspections                                                               9
                                                                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS
                                                                                                                                   Appendix A


                                                                      CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                        Uniques4                                  Encounters4

                                   Station                   CBOC
         Location        State                Locality5                   MH7         PC8      Other9       All       MH7        PC8     Other9       All
                                      #                       Size6
    St. Joseph           MO       589GI       Urban       Mid-Size          423      2,464         380     2,629      4,618     5,377       514     10,509
    Junction City        KS       589GR       Rural       Mid-Size          379      1,954         455     2,225      1,500     4,583       740      6,823
    Wyandotte
    County VA
    Outpatient Clinic    KS       589GJ       Urban       Mid-Size          373      1,371         831     1,523      1,807     3,161     2,059       7,027
    Lawrence             KS       589GU       Urban       Small             158        864         114       954      1,290     1,320       210       2,820
    Ft. Scott
    (Bourbon Co.)        KS       589GV       Rural       Small               97       443          91       491        456       909       273       1,638
    Chanute              KS       589GM       Rural       Small               47       329           1       345        253       697         1         951
    Emporia              KS       589GN       Rural       Small               30       225           1       244        146       462         1         609
    Garnett              KS       589GP       Rural       Small               22       166           0       172         72       340         0         412
    Seneca               KS       589GT       Rural       Small                0       115           0       115          0       145         0         145




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the October

1, 2012, through September 30, 2013, timeframe at the specified CBOC. 

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                     10
                           CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.

                                   Specialty Care 
              CBOC                                            Ancillary Services11       Tele-Health Services12
                                     Services10
    St. Joseph                           ---                Electrocardiography            Tele Primary Care
    Junction City                        ---                Electrocardiography                Tele Case
                                                              MOVE! Program                  Management
                                                                 Pharmacy                  Tele Primary Care
    Wyandotte County                     ---                Electrocardiography            Tele Primary Care
    VA Outpatient Clinic
    Lawrence                             ---                           ---                          ---
    Ft. Scott (Bourbon                Podiatry                         ---                          ---
    Co.)
    Chanute                              ---                           ---                          ---
    Emporia                              ---                           ---                          ---
    Garnett                              ---                           ---                          ---
    Seneca                               ---                           ---                          ---
 




10
   Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

11
   Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

12
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 


VA OIG Office of Healthcare Inspections                                                                          11
                                                                    CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS
                                                                                                                                 Appendix B


                                                         PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                 12
                                                                    CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in PCCs 322, 323 and 350. Data is collected twice a month on the 1st and the 15th.
Data reported is for the data pulled on the 15th of the month. There is no fiscal year to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                 13
                                                                    CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s primary care provider/AP. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                14
                                                                     CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                  15
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS
                                                                                   Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs 	                              Memorandum


           Date:       June 9, 2014

          From:        Director, VA Heartland Network (10N15)

       Subject: 	      CBOC and PCC Reviews of the VA Eastern Kansas
                       Health Care System, Topeka, KS

             To: 	     Director, Kansas City Office of Healthcare Inspections
                       (54KC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



       Attached, please find the initial status response for the CBOC and PCC
       Reviews of the VA Eastern Kansas Health Care System, Topeka, KS
       (Conducted the week of May 5, 2014).

       I have reviewed and concur with the Medical Center Director’s response.
       Thank you for this opportunity to focus on continuous performance
       improvement.

       For additional questions, please feel free to contact Mary O’Shea, VISN
       15 Quality Management Officer at 816-701-3000.




       WILLIAM P. PATTERSON, MD, MSS

       Network Director

       VA Heartland Network (VISN 15)




VA OIG Office of Healthcare Inspections                                                    16
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


           Date:       June 6, 2014

          From:        Director, VA       Eastern   Kansas   Health    Care   System
                       (589A5/00)

       Subject:        CBOC and PCC Reviews of the VA Health Eastern
                       Kansas Care System, Topeka, KS

             To:       Director, VA Heartland Network (10N15)



       I appreciate the OIG’s comprehensive report and efforts to ensure high
       quality for our Veterans. Eastern Kansas is in concurrence with the report.




VA OIG Office of Healthcare Inspections                                                    17
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that external signage clearly identifies the
building as a VA CBOC at the Garnett CBOC.

Concur

Target date for completion: January 2015

Facility response: Host facility is currently constructing a new building. Permanent
signage will be addressed once the new hospital is completed and official hospital
signage is installed. As an interim measure a temporary sign will be made to be
displayed during VA Clinic hours and a request to post the sign on the exterior of
Garnett Hospital will be made to the leasor of the space. Occupancy is expected in
January 2015.

Recommendation 2. We recommended that fire drills are performed every 12 months
at the Garnett CBOC.

Concur

Target date for completion: November 2014

Facility response: Eastern Kansas Health Care System in conjunction with the Garnett
CBOC will ensure that fire drills are conducted when CBOC staff is present. The fire
drills for fiscal year 14 will be completed by the end of the 4th quarter. Documentation
will be collected in the Occupational Safety and Health Department and the
Environment of Care committee will monitor progress, documentation, and compliance.

Recommendation 3. We recommended that the door to the examination room
designated for women veterans is equipped with an electronic or manual lock at the
Garnett CBOC.

Concur

Target date for completion: January 2015

Facility response: Host facility is currently constructing a new building. All examination
rooms in the new hospital at Garnett will be equipped with manual locks. Per DUSHOM
Privacy Dignity and Security guidelines – Precautions in place are curtains which shield
exam table and room from view of door way and the foot of the exam tables are not
aimed at the door. Administrative protocols also in place include: staff knock and wait


VA OIG Office of Healthcare Inspections                                                    18
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


before entering, patients are also shielded with drapes to minimize exposure.
Occupancy is expected in January 2015.

Recommendation 4. We recommended processes are strengthened to ensure women
veterans can access gender-specific restrooms without entering public areas at the
Garnett CBOC.

Concur

Target date for completion: January 2015

Facility response: The new hospital space dedicated to the VA will provide gender
specific bathrooms in the Specialty Clinic suite; separating itself from public areas.
Administrative controls are currently in place for this location to ensure patients’ dignity
that follows handbook requirements – Patients are offered use of toilet prior to disrobing
for exam. If a patient is in a gown and indicates the need to use the restroom which is
in a public area, staff have been directed and will accommodate the patient to redress if
they choose prior to exiting the exam room. If a patient voices concern about time to
dress, staff have access to drapes/sheets/additional gowns to cover patient to assure
no exposure. Occupancy is expected in January 2015.

Recommendation 5. We recommended that the information technology server closets
at the Chanute and Fort Scott CBOCs are maintained according to information
technology safety and security standards.

Concur

Target date for completion: January 2015

Facility response: Eastern Kansas Health Care System CBOC Manager and information
technology will work with contract hospitals to ensure that a sign-in log is placed in
information technology rooms associated with leased CBOC space. CBOC manager
and/or information technology staff will monitor for on-going compliance during visits at
least semi-annually. If compliance is maintained, monitoring may be completed on an
annual basis.

Recommendation 6. We recommended that managers conduct environment of care
rounds semi-annually at the Garnett CBOC.

Concur

Target date for completion January 2015

Facility response: Eastern Kansas Health Care System will ensure that semi-annual
environment of care rounds are conducted at all CBOCs. Documentation will be
maintained in Occupational Safety and Health office. The Environment of Care
Committee will monitor progress and review documentation for compliance.



VA OIG Office of Healthcare Inspections                                                    19
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


Recommendation 7. We recommended that the parent facility include staff at the
Chanute, Fort Scott, and Garnett CBOCs in required education, training, planning, and
participation in annual disaster exercises.

Concur

Target date for completion: January 2015

Facility response: Eastern Kansas Health Care System will fully incorporate the CBOCs
into the drill and exercise schedule and will document compliance with this requirement.
The Emergency Management Committee will monitor progress and review
documentation.

Recommendation 8.           We recommended that the parent facility’s Emergency
Management Committee evaluate the Chanute, Fort Scott, and Garnett CBOCs’
emergency preparedness activities, participation in annual disaster exercises, and staff
training/education relating to emergency preparedness requirements.

Concur

Target date for completion: January 2015

Facility response: Eastern Kansas Health Care System will fully incorporate the CBOCs
into the drill and exercise schedule and will document compliance with this requirement.
The Emergency Management Committee will monitor progress and review
documentation.

Recommendation 9.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: March 2015

Facility response: The alcohol use screening template will be updated to assure current
diagnostic assessments are being completed on patients with a positive alcohol screen.
The template will include the offering of further treatment options for those patients with
diagnosed alcohol dependence.

Education will be provided to all staff on the importance of completing the assessments,
offering treatment options to patients as well as proper documentation. Audits will be
completed monthly on 33 percent of patients with positive screens to ensure provider
assessment compliance. Medicine Chief will be notified monthly of compliance
percentage and on any issues of non-compliance. Audits will decrease to quarterly
after 3 months of 90 percent or above compliance is reached. PACT Oversight
Committee will monitor progress and review documentation.



VA OIG Office of Healthcare Inspections                                                    20
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS


Recommendation 10. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: January 2015

Facility response: PACT Nurse Manager(s) will assign PACT RN Care Manager(s) to
attend TEACH and Motivational Interviewing courses within 12 months of hire/transfer
to PACT. PACT Nurse Managers will monitor compliance monthly until 90 percent or
above compliance is maintained for 2 quarters. PACT Oversight Committee will monitor
progress and review documentation.




VA OIG Office of Healthcare Inspections                                                    21
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Cindy Niemack-Brown, CMSW, LMHP, Team Leader
Contributors            Larry Selzler, MSPT
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Stephanie Hensel, RN, JD
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        James Seitz, RN, MBA
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    22
                      CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Heartland Network (10N15)
Director, VA Eastern Kansas Health Care System (589A5/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jerry Moran, Pat Roberts
U.S. House of Representatives: Sam Graves, Tim Huelskamp, Lynn Jenkins, Kevin
 Yoder


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    23
                           CBOC and PCC Reviews at VA Eastern Kansas Health Care System, Topeka, KS
                                                                                        Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention, Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_fiscal year12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook, 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    24
